<html>
<title> - CRUSHING DISSENT: THE ONGOING. CRISIS IN NICARAGUA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                     CRUSHING DISSENT: THE ONGOING
                          CRISIS IN NICARAGUA

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
          THE WESTERN HEMISPHERE, CIVILIAN SECURITY, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             June 11, 2019

                               __________

                           Serial No. 116-45

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                           or www.govinfo.gov                           
                           
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-567PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------                           
                           
                           
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman
                   
BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                       


                    Jason Steinbaum, Staff Director
              Brendan Shields,  Republican Staff Director
              
              
                                 ------                                

  Subcommittee on the Western Hemisphere, Civilian Security, and Trade

                   ALBIO SIRES, New Jersey, Chairman

GREGORY W. MEEKS, New York           FRANCIS ROONEY, Florida,
JOAQUIN CASTRO, Texas                  Ranking Member
ADRIANO ESPAILLAT, New York	     CHRISTOPHER H. SMITH, New Jersey
DEAN PHILLIPS, Minnesota             TED S. YOHO, Florida
ANDY LEVIN, Michigan	     	     JOHN CURTIS, Utah
VICENTE GONZALEZ, Texas	     	     KEN BUCK, Colorado
JUAN VARGAS, California	     	     MIKE GUEST, Mississippi

                      Sadaf Khan, Staff Director

                           C O N T E N T S

                              ----------                              
                                                                   Page

                 OPENING STATEMENT FROM CHAIRMAN SIRES

Hon. Albio Sires, Chairman of the subcommittee...................     3

                               WITNESSES

Vivanco, Jose Miguel, Executive Director, Americas Division, 
  Human Rights Watch.............................................     9
Maradiaga, Felix, Executive Director, Institute for Strategic 
  Studies and Public Policies....................................    16
Ponce, Carlos, Director, Latin American Programs, Victims of 
  Communism Memorial Foundation..................................    22

                                APPENDIX

Hearing Notice...................................................    42
Hearing Minutes..................................................    43
Hearing Attendance...............................................    44

                  INFORMATION SUBMITTED FOR THE RECORD

Amnesty International letter submitted for the record from 
  Representative Rooney..........................................    45

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record from 
  Representative Espaillat.......................................    49

 
                     CRUSHING DISSENT: THE ONGOING.
                          CRISIS IN NICARAGUA

                         Tuesday, June 11, 2019

                        House of Representatives

                  Subcommittee on Western Hemisphere,

                      Civilian Security and Trade

                      Committee on Foreign Affairs

                                     Washington, DC

    The committee met, pursuant to notice, at 10:04 a.m., in 
room 2172 Rayburn House Office Building, Hon. Albio Sires 
(chairman of the subcommittee) presiding.
    Mr. Sires. This hearing will come to order. This hearing, 
titled, ``Crushing Dissent: The Ongoing Crisis in Nicaragua,'' 
will highlight the human rights situation in Nicaragua and the 
United States policy options to address the ongoing political 
crisis there.
    Without objection, all members may have 5 days to submit 
statements, questions, extraneous materials for the record, 
subject to the length limitation in the rules. I will now make 
an opening statement and then turn it over to the ranking 
member for his opening statement.
    Good morning, everyone. Thank you to our witnesses for 
being here today to discuss the deeply concerning crisis in 
Nicaragua.
    Since April 2018, protests against the government of 
President Daniel Ortega have been met with brutal oppression. 
While the protests began in response to a proposed social 
security reform, they came to represent much broader discontent 
with Ortega's authoritarian leadership. Security officials and 
armed thugs under the command of Ortega responded by shooting 
at unarmed protesters, leaving more than 320 people dead with 
2,000 injured and hundreds arbitrarily detained.
    Civil society groups estimated there were over 700 
political prisoners earlier this year. I understand that this 
morning, more than 50 political prisoners were released and as 
many as 520 have been freed in recent months. However, we must 
remember that these individuals should never have been jailed 
in the first place. Moreover, many remain under house arrest 
and are being denied the right to participate in politics and 
continue speaking out against this repressive regime.
    An independent panel of experts appointed by the Inter-
American Commission on Human Rights conducted a field visit 
following the protests last year. These experts concluded that 
Ortega's government intentionally used lethal weapons against 
protesters in what amounted to crimes against humanity. I have 
heard firsthand from Nicaraguan activists including some 
Nicaraguan Americans who told me they were tortured while in 
government custody. Some say they were tortured by Cuban 
officials working in coordination with the Ortega regime.
    On May 16th, an American citizen, Eddy Montes, was shot and 
killed in a prison near Managua. We should demand 
accountability for the killing of Mr. Montes and for all those 
Nicaraguans who have been victims of human rights violation. 
Unfortunately, the blanket amnesty bill passed by Nicaragua's 
Congress over the weekend represents a huge step in the wrong 
direction as it would formally absolve the worst human rights 
violators of their crimes.
    While the last year has seen an increase in State violence, 
it is important to highlight that the situation in Nicaragua 
has been deteriorating for many years. I have been working with 
colleagues here to sound the alarm about the authoritarian 
slide taking place under Ortega and increase awareness about 
what is happening in Nicaragua.
    Last Congress, I co-sponsored a bill with my good friend 
from Florida, Chairman Emeritus of the Foreign Affairs 
Committee, Ileana Ros-Lehtinen, to pass the Nicaragua Human 
Rights and Anticorruption Act of 2018. The NICA Act requires 
the United States to vote against loans from international 
financial institutions to Nicaragua. It also authorizes the 
President to impose visa restrictions and block the foreign 
assets of individuals responsible for human rights violations 
or acts of corruption.
    We must send a clear message that we stand shoulder to 
shoulder with the people of Nicaragua. Nicaragua is the second 
poorest country in the Western Hemisphere and the political 
crisis has only worsened the suffering of many Nicaraguans. The 
people of Nicaragua deserve far better than this. I hope that 
today we can explore ways for the U.S. Congress to do more to 
support the Nicaraguan people in their quest for dignity, 
economic opportunity, and fundamental human rights.
    Thank you, and I now turn to the ranking member for his 
opening statement.
    [The prepared statement of Mr. Sires follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Rooney. Well, thank you, Mr. Chairman. And I would like 
to thank Chairman Sires for calling this very important hearing 
and to bring attention to what is going on in Nicaragua. I know 
much attention has been focused on Venezuela, but we need to 
let people know that a similarly destructive climate exists in 
Nicaragua.
    Last year, public anger over President Daniel Ortega's rule 
led to widespread protests that left over 300 civilians dead. 
Recent attempts by local groups like the Alianza, the United 
States, the OAS, and the broader international community to 
mediate a transition to democracy are struggling to yield 
results. I am concerned that the recent discussions to release 
political prisoners are delay and distracting moves, and the 
releases of today prove that because these people are not free, 
they are released to house arrest as the chairman mentioned.
    After being elected in 2006, Ortega used his corruption and 
intimidation to consolidate power for himself and the 
Sandinistas. He has eliminated Presidential term limits, 
removed the 35 percent vote threshold required to win the 
presidency, and has made it illegal for lawmakers to vote 
against their own party, thus paving the way to a complete and 
indefinite control over the Sandinista Party.
    Obliterating democratic norms, Ortega has made moves to 
shore up his own support among the public. Over time, he has 
implemented social welfare programs to benefit the country's 
poor, ostensibly, policies he claims are reducing poverty and 
raising incomes by providing government subsidies and services 
to the Nicaraguan public--sure sounds like Venezuela to me--
nonetheless, Nicaragua remains the second poorest country in 
the hemisphere.
    While at one point, Ortega recognized the importance of 
accommodating the business sector and nurturing the economy in 
Nicaragua, he has backtracked on this now and many, many jobs 
have been taken away and unemployment is rising. Ortega's 
antidemocratic rule has created a crisis plaguing Nicaragua. 
Until a few years ago, he was content, like I said, to let 
business operate, but once he moved to insulate his rule and 
bring his wife, Rosario Murillo, his vice president, into the 
2016 election process, he reversed course.
    In 2018, public discontent came to a head after Ortega 
planned to reduce social welfare benefits. Additional social 
reforms sparked protests throughout Nicaragua and have led to 
complaints of government mismanagement and corruption. Ortega 
responded with violence and intimidation, leaving over 300 dead 
and hundreds of peaceful protesters in prison. In August 2018, 
the annual United Nations High Commissioner for Human Rights 
Report outlined widespread human rights abuses by the 
Nicaraguan Government. Those include extrajudicial killings, 
forced disappearances, torture, and the suppression of the 
rights of peaceful assembly and free expression. The OAS 
further reported in December 2018 that these violations by 
government forces constituted crimes against humanity.
    Despite coordinated efforts by the United States and a host 
of regional and international bodies to mediate the conflict, 
the Ortega regime has been able to maintain its control over 
Nicaragua. Talks between the government and the opposition have 
yet to bring any progress. The Trump administration and 
Congress have both responded strongly to the crisis with the 
implementation of personal sanctions and visa restrictions 
against Ortega, his family, and various Nicaraguan officials 
responsible for the violations of human rights. These are 
important maneuvers, and my understanding is they have had some 
significant, positive results.
    We need to do more. Moving forward, we must present a clear 
strategy in coordination with our partners and allies to exert 
maximum pressure on the Ortega regime, while also trying to 
alleviate the suffering of the Nicaraguan people. The United 
States must continue to show leadership within the OAS, and the 
OAS has passed resolutions condemning the government's use of 
violence and reaffirming the Hemisphere's collective concern 
over the deterioration of democratic institutions and human 
rights in Nicaragua.
    We must do more to pressure the Ortega regime to adopt 
electoral and judicial reforms and to bring about free and fair 
elections. The United States must maintain support for 
democratic actors in Nicaragua and encourage them to somehow or 
another become more effective than they may have been recently. 
We face unprecedented challenges in the Western Hemisphere. 
Among the most critical is the ongoing crisis in Nicaragua.
    These challenges, including the crisis in Venezuela, show 
corrupt leaders like Daniel Ortega that the United States will 
not stand by while legitimate regimes crush democracy and 
enrich themselves at the expense of their own people. We need 
to expand and strengthen the personal sanctions, limit Ortega's 
ability to exert influence in the rest of Central America and 
support opposition groups and try to help them become more 
effective in countering the Ortega regime within the country.
    Once again, I want to thank Chairman Sires for holding this 
important hearing and look forward to hearing from these 
important witnesses today.
    Mr. Sires. Thank you very much, Ranking Member Rooney.
    Let me introduce, first, Mr. Jose Miguel Vivanco, director 
of Human Rights Watch Americas Division and an expert on Latin 
America. He previously worked as an attorney for the Inter-
American Commission on Human Rights. In 1990, he founded the 
Center for Justice and International Law.
    We will then hear from Mr. Felix Maradiaga, executive 
director at the Institute for Strategic Studies and Public 
Policy. In 2007, he founded the Civil Society Leadership 
Institute which trains leaders in Central America on 
nonviolence and civic engagement. In 2018, he was accused, 
without evidence, by the Nicaraguan government of financing 
terrorism under a new law that has been used repeatedly by 
Ortega's government to silence activists and dissidents.
    Finally, we will hear from Dr. Carlos Ponce, director of 
Latin American programs at the Victims of Communism Memorial 
Foundation. Dr. Ponce has 28 years of experience in the field 
of governance, rule of law, civil society and development, 
advocacy for human rights, and democracy empowerment in Latin 
America. Most recently, he was regional director of Latin 
America and the Caribbean at the Freedom House.
    Thank you all for being here. I ask the witnesses to please 
limit your testimony to 5 minutes. Without objection, your 
prepared written statements will be made a part of the record. 
Thank you so much for being here today.
    And, Mr. Vivanco, I will turn to you for your testimony.

STATEMENT OF JOSE MIGUEL VIVANCO, EXECUTIVE DIRECTOR, AMERICAS 
                  DIVISION, HUMAN RIGHTS WATCH

    Mr. Vivanco. Thank you very much, Mr. Chairman. Thank you, 
Ranking Member Rooney and members of this committee for 
inviting me, the subcommittee for inviting me to testify on 
Nicaragua's human rights record.
    In April 2018, massive antigovernment protests broke out 
across Nicaragua. Police, in coordination with armed, pro-
government groups brutally repressed protesters. In the context 
of demonstrations, more than 300 people were killed and more 
than 2,000 were seriously injured. Many of the people detained 
during the crackdown were subject to serious abuses that in 
some cases amounted to torture, including electric shocks, 
severe beatings, nail removal, asphyxiation, and rape.
    Authorities' abuses of protester remain unpunished. 
Moreover, President Ortega promoted top officials who bear 
responsibility for the abuses. The government has also 
threatened, harassed, expelled, jailed those who expose its 
abuses including independent journalists, human rights 
defenders, international monitors, and NGO's. Several of the 
human rights defenders and journalists targeted during the 
crackdown have been longstanding critics of Ortega and have 
already been victims of harassment before the protest started.
    Since the beginning of the protest, Nicaragua's police and 
armed pro-government groups have operated jointly to detain 
hundreds of demonstrators. Armed pro-government groups have 
also abducted many people, at times holding them in secret 
detention facilities. On March 20, 2019, the Nicaraguan 
Government agreed to release all people detained in the context 
of the protests by June 18 and to drop the charges against them 
in an effort to persuade international community, and 
particularly the U.S. Government, to lift sanctions against 
them.
    Human rights defenders and other critics of the government 
have increasingly become the targets of death threats, 
harassment, judicial persecution, and even expulsion from the 
country. Between November 29 and December 13, 2018, Nicaragua's 
Congress has stripped nine non-governmental organizations of 
their legal registration, effectively forcing them to shut 
down. Congressman Filiberto Rodriguez of the ruling party 
introduced the motions of stripping them of registration at the 
request of Interior Ministry.
    On the night of December 13, the national police raided 
five of these organizations, confiscating many documents and 
computers. The NGO shutdowns were followed by criminal charges 
against prominent human rights defenders and the expulsion of 
Inter-American Human Rights Commission and previously the 
representatives of the High Commissioner for Human Rights. 
Since April 18 of last year, police and armed pro-government 
groups have harassed, intimidated, assaulted, and detained 
journalists.
    Two foreign journalists reporting on the crackdown were 
deported in August and October of last year. The government has 
shut down critical news channels. Since April 2018, 56 
Nicaraguan journalists have gone into exile. According to 
United Nations High Commissioner for Refugees, more than 60,000 
Nicaraguans have fled the country since the protest began in 
April 2018, with the majority, 55,000 of them, seeking refuge 
in Costa Rica.
    We support the application of the Global Magnitsky Act in 
July 2018 and December 2018, when the U.S. Treasury Department 
imposed sanctions on five Nicaraguans implicated in human 
rights abuses and corruption, including national police 
commissioner Francisco Diaz and also Vice President Rosario 
Murillo. The Nicaraguan Human Rights and Anticorruption Act, 
NICA Act, passed on December 20th of 2018, expanded on the 
Global Magnitsky Act to allow the U.S. Government to take 
additional action against egregious human rights abuses taking 
place in Nicaragua. We urge Congress to consider its immediate 
implementation against human rights abusers in Nicaragua who 
have yet to be held accountable and look forward to working 
with you on these efforts.
    My last remarks are going to be related to the amnesty 
legislation, amnesty law that was passed this week in 
Nicaragua. On June 8, the Nicaragua National Assembly passed a 
broad amnesty law for crimes committed in the context of 
antigovernment protest. The recent release of over 150 people 
who were arrested during the protest shows that the law is not 
necessary to release the political prisoners who are still 
behind bars. On the contrary, the law could be used to benefit 
officers responsible for abuses.
    The law indicates that crimes, ``regulated in international 
treaties, ratified by Nicaragua,'' will be excluded by the 
amnesties. Yet, given lack of judicial independence in 
Nicaragua, there is a serious risk that the law will be used to 
consolidate impunity that officers responsible for serious 
abuses in the country have enjoyed today.
    According to the Office of the U.N. High Commissioner for 
Human Rights, the available information indicates that only one 
member of the armed pro-government groups, only one member of 
those kinds of groups has been convicted for crimes documented 
by the High Commissioner Human Rights Office of United Nations, 
and not a single police officer is being investigated for these 
atrocities. Not a single police officer of the Nicaraguan 
police has been investigated, prosecuted, or charged for 
atrocities committed in violation of human rights last year and 
the current year.
    The law provides, finally, that people who engage in new 
crimes will have their amnesty revoked. Given the government's 
record of prosecuting critics, there is a risk that this 
provision will be misused to persecute former political 
prisoners who continue to criticize the government, the 
dictatorship of Ortega, after they are released.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Vivanco follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Sires. Thank you.
    Mr. Maradiaga, you are now recognized for testimony.

STATEMENT OF FELIX MARADIAGA, EXECUTIVE DIRECTOR, INSTITUTE FOR 
             STRATEGIC STUDIES AND PUBLIC POLICIES

    Mr. Maradiaga. Good morning, Mr. Chairman and members of 
this subcommittee, it is an honor to be here today. Chairman 
Sires, thank you for paying a special attention to the very 
serious situation in Nicaragua.
    Since his return to power in 2006, Daniel Ortega has taken 
over Nicaragua's institutions to remain in power, causing 
widespread corruption, human rights abuses, and a collapsing 
economy. Ortega and his inner circle constitute the clear and 
present danger not only to the people of Nicaragua, but also to 
the entire hemisphere. In the face of this, Nicaraguans have 
joined together to restore liberty, justice, and democracy.
    In April 2018, Nicaraguans from all walks of life joined 
pro-democracy protest demanding respect for human rights, the 
resignation of Ortega, and early, free, and internationally 
monitored elections. The response was a brutal government 
crackdown on protesters that caused the death of over 300 
civilians. Talks between the regime and the opposition have 
repeatedly failed.
    In May of this year, negotiations were suspended as a 
result of the assassination of political prisoner Eddy Montes, 
a U.S. Navy veteran with dual citizenship who was retired in 
Nicaragua. His killing inside the notorious La Modelo prison 
outraged Nicaraguans because he was shot by prison guards with 
an AK-47 while unarmed.
    Ortega has violated preliminary agreements. Instead, his 
regime continues to perpetrate human rights violations 
including extrajudicial killings, torture, sexual abuse of 
prisoners, arbitrary detention, and other crimes against 
humanity. These violations make it increasingly difficult for 
the opposition to resume negotiations. The regime continues to 
persecute citizens who actively participated in the protests, 
causing an unprecedented exodus of refugees not seen since the 
Nicaraguan civil war of the 1980's.
    Over 100,000 people have fled the country since the 
conflict began. The vast majority remains in Costa Rica under 
dire conditions. Although the response of the Government of 
Costa Rica has been admirable, the international community has 
ignored that there is a humanitarian crisis of Nicaraguan 
refugees in Costa Rica. We have also seen an increase of 
Nicaraguans escaping from political persecution and seeking 
asylum in the United States. Their need for asylum is 
legitimate and they will face certain death or incarceration if 
they return.
    At least 2,000 people have been imprisoned for 
participating in anti-Sandinista protest, and while most of 
them have been released on house arrest due to national and 
international pressure, many remain in arbitrary detention. The 
regime continues to use human beings as bargaining chips. An 
additional 200 activists, myself included, have arrest warrants 
under bogus charges.
    Ortega controls the national police who report directly to 
him and his wife. In the case of the military, once Ortega rose 
to power, he sent generals that were considered professional 
into early retirement and promoted those that were loyal to 
him.
    Despite immense personal risks, the people of Nicaragua 
continue to struggle for democratic change. All forms of 
peaceful protest have been prohibited. Sandinista paramilitary 
constantly intimidate members of the opposition, all major 
cities are militarized, Nicaragua is now a police State. We, 
the Nicaraguan people, are fighting for our freedom. We are not 
asking the international community to solve our problems, but 
since our struggle is nonviolent, we need robust, international 
support in the form of targeted sanctions against human rights 
violators.
    We also need the swift implementation of the Nicaragua 
Human Rights and Anticorruption Act, the NICA Act. Without such 
support, Nicaragua is doomed to become another Venezuela. 
Effective international pressure requires coordinated action by 
key allies in the Western Hemisphere. It is unacceptable that 
some member States of the Organization of American States are 
supporting the tyranny of Ortega. The application of the Inter-
American Democratic Charter is imperative to achieve democracy 
in Nicaragua.
    Ortega is a relic of the cold war and just like the 
Communist Party of Cuba and Nicolas Maduro in Venezuela, he 
embodies a legacy of oppression against dignity. The Nicaraguan 
people are ready for a new path. Last year, over 40 
organizations from civil society and diverse political 
movements agreed on a common manifesto of national unity. This 
pro-democracy movement is ready to build a new Nicaragua. Your 
democratic solidarity will be instrumental in helping us 
achieve the freedom Nicaraguans deserve.
    Thank you.
    [The prepared statement of Mr. Maradiaga follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Sires. Thank you.
    Dr. Ponce, you are now recognized.

 STATEMENT OF CARLOS PONCE, DIRECTOR, LATIN AMERICAN PROGRAMS, 
            VICTIMS OF COMMUNISM MEMORIAL FOUNDATION

    Mr. Ponce. Thanks, Mr. Chairman Sires and Ranking Member 
Rooney and other members. Thanks for keeping an eye on 
Nicaragua. Nicaragua is also on the map. It is not only about 
Venezuela, it is also Nicaragua, and the solution needs to set 
Nicaragua, Cuba, and Venezuela free. The massive popular 
uprising with youth/peasant/autoconvocados claiming democracy 
in Nicaragua last year was not a random political situation. 
The crisis has been in the making for decades. Daniel Ortega's 
failed Sandinista revolution, corruption, and economic disaster 
from 1971 to 1990, along with the negotiation of the 
international community that forced the autocrat to organize 
the first democratic election in 1990. That was the first time 
in 58 years that Nicaragua had a democratic elected government. 
Finally, Daniel Ortega was defeated after 11 years in power at 
that time.
    But Daniel Ortega continued his obsession with power. He 
was the candidate at the election in 1990, 1996, 2001, and he 
received only 30 percent of the votes in each one of those 
elections. But he became a major force behind an obstruction 
for the democratic government to rule the country. The 
corruption also from some of the governments that rule 
Nicaragua, particularly Aleman, drove Daniel Ortega into power 
again. The division of the principal political party allowed 
Daniel Ortega to win in 2006 only with 38 percent of the vote. 
Then the pact became in force between Aleman and Daniel Ortega 
allowing Daniel Ortega to control all the institutions, and to 
control the parliament. Only with 30 percent of the vote, 
Daniel Ortega controlled the parliament, controlled the 
judiciary, and became the force of change in Nicaragua. He 
controlled all the institutions and he began a process to re-
elect himself. After numerous pressures against the regime, it 
agreed to have some negotiation for changing electoral rules in 
2016, but he never fulfilled that commitment.
    So Daniel Ortega continued with his obsession with power. 
He has been ruling Nicaragua for 24 years and he has been in 
the opposition and ruling the country directly for four 
decades. After 30 years of in power, Daniel Ortega, dismantled 
the institutions, some groups began to organize themselves. 
Daniel Ortega's obsession with power led him to take control of 
some of the land to promote the inter-oceanic Canal. That 
forced the campesinos movement to begin a movement against 
Daniel Ortega, a revolt that became popular among Nicaraguans, 
and Daniel Ortega simply crushed the movement at that time.
    But the youth begins to feel there was no alternative for 
Nicaragua, and last year, after a major environmental crisis 
with the Parque el Indio and then with Daniel Ortega's effort 
to dismantle the social security, increasing social security 
tax and reducing benefits, Daniel Ortega created a major 
crisis. That crisis forced the youth movement to go to the 
streets and begin a massive demonstration and Daniel Ortega 
just crushed the demonstrations and began to kill students, 
youth, campesinos, and demonstrators using his militias and the 
police directly engaged in violence in the rest of the country.
    By that time, Ortega felt that he needed to negotiate and 
he called for a negotiation with the youth and the campesinos 
and he failed in his word for change in the situation in the 
country. Daniel Ortega has been manipulating the country and 
offering negotiations for many years. None of the opportunities 
in which Daniel Ortega offered negotiation has been working. 
Now Daniel Ortega is seeing 2021 as an opportunity. But if we 
allow Daniel Ortega to manipulate a negotiation and run again, 
Daniel Ortega will win the next election in 2021.
    Daniel Ortega has been supported by the business chamber 
(COSEP) and by the members of the private sector, so they need 
to get on board for a change, a real change in Nicaragua. We 
need to increase the pressure against the regime in Nicaragua. 
Even though the U.S. administration has been imposing sanctions 
against some of the members of regime, the family of Daniel 
Ortega, it has been only eight sanctions in all this time. And 
the NICA Act is not being implemented, waiting for some 
negotiation with Daniel Ortega.
    Unless we increase the pressure against Daniel Ortega's 
inner circle and his family, unless we begin to put pressure in 
the police and the military to increase the sanctions against 
them to motivate them to be a force of change, unless we create 
a major commitment from the rest of the country and the region 
to also impose sanctions against the regime, and also monitor 
the situation with the Organization of American States to 
prevent a bad negotiation with the regime, they are not going 
to bring an electoral change.
    But an electoral change is not going to bring a change into 
the country because the country will not change unless Ortega 
is taken out of power. And for an open, free, and democratic 
election, Ortega cannot be a candidate and cannot be in place 
when that election happen. We need to implement the NICA Act. I 
believe that Congress has an opportunity right now to force a 
change in Nicaragua with more sanctions and put in pressure for 
the regime to open the doors, not for a house arrest. It is 
time for Nicaragua to be free. Thank you.
    [The prepared statement of Mr. Ponce follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Sires. Thank you, Dr. Ponce.
    Now we will go to questions. You know, I was one of the 
sponsors, with Ileana Ros-Lehtinen, of the NICA Act, and 
obviously this effort was to reduce Ortega's access to foreign 
finance and impose sanctions on Nicaraguan officials 
responsible for human rights violation.
    I guess, Dr. Ponce, you do not believe that the NICA Act 
has been effective or--I wonder, what do you think, Dr. Ponce?
    Mr. Ponce. Yes. I believe that the NICA Act is effective, 
but we need to implement the NICA Act in full, not only eight 
sanctions. I believe we need to increment the pressure against 
the regime. We need to bring, also, members of the police into 
our sanction process. We need to include members of the 
military and some of the members of the business sector that 
have been collaborating with the Ortega regime.
    My view is that the Ortega regime has been using the 
negotiation to stop the sanction, trying to negotiate, 
liberating some--well, house arrest of some prisoners, and 
leaving the situation. Remember that Daniel Ortega has a close 
relationship also with Venezuela. Venezuela gave Daniel Ortega 
five billion dollars with Albanisa and other charities, so it 
is a country with all this problem involved.
    Mr. Sires. Mr. Vivanco?
    Mr. Vivanco. Mr. Chairman, the regime in Nicaragua is, I 
think, is fair to characterize, today, the government as a 
dictatorship and it is run by Mr. Ortega and his wife, the vice 
president. Based on the record of Ortega, it seems to me that 
Nicaragua is run today by a politician who is essentially a 
transactional one, somebody who might change his record based 
on the pressure exercised on him and his government, locally as 
well as by international community.
    I do believe that the Global Magnitsky law is a fantastic 
instrument to exercise pressure, not only on Nicaragua but a 
global level. And the fact that few members of that 
administration has been targeted last year is extremely 
important. Now last year, also, you passed a specific 
Magnitsky, or NICA Act for Nicaragua and that one is the law 
that is still pending for application. We do believe that the 
only way to make some meaningful progress in terms of 
transition to democracy in Nicaragua and respect for 
fundamental freedoms and human rights depends on in many ways 
on the international pressure and particularly the 
implementation of the specific NICA Act. Thank you.
    Mr. Sires. Mr. Maradiaga?
    Mr. Maradiaga. Mr. Chairman, one of the lessons learned 
from nonviolent movements around the world is that they can 
only be effective with robust international support. In this 
regard, the NICA Act is a fantastic example of how the 
international community can support such movements. And as Mr. 
Vivanco and Dr. Ponce has emphasized, this is a fantastic tool 
that has not been fully implemented.
    In addition to the NICA Act, it is important to emphasize 
the importance of coordination in the Western Hemisphere. I 
would like to highlight the fact that countries such as 
Honduras and Guatemala, for example, have been, in effect, 
blocking many of the activities inside the Organization of 
American States. We have other examples, the Government of 
Taiwan, for example, have provided a lifeline to the regime of 
Ortega of over $100 million.
    So it is not only the action of the United States, but we 
request the coordinated action of those countries that regard 
themselves as part of the free world; however, their actions 
are not compatible to what they are doing toward the Ortega 
regime.
    Mr. Sires. Thank you.
    Ranking Member Rooney.
    Mr. Rooney. Thank you, Chairman Sires. I appreciate that.
    I would like to ask Dr. Ponce first about your assessment. 
Given the fact you noted the need for more effective sanctions, 
what is your assessment of the opposition, their unity, their 
ability to bring about a democratic transition? Start with Dr. 
Ponce and then the others.
    Mr. Ponce. What we see in Cuba, Venezuela, Nicaragua is a 
dictatorship manual. They apply the same. They divided 
opposition by the opposition because some of the members of 
COSEP has been in bed with the regime, just because there is a 
golden opportunity or was a golden opportunity with $5 billion 
from Venezuela, with all the corruption, so it was a good 
opportunity.
    And some of the members of the opposition has been divided 
and some of them, the success with the pact with Aleman gave 
power to Daniel Ortega again. Daniel Ortega learned the lesson 
and he has been applying that. He even became Catholic, 
Evangelical, whatever. He has been transforming himself. He is 
a powerful guy and he will not leave power.
    The thing with the opposition, they need--yes, they are 
going to be divided. They are going to need to help also to 
consolidate the power in the countryside. We need to help the 
campesinos movement to become a major force. We need to help 
the youth to be more active again in Nicaragua and consolidate 
power in the countryside. We need to help the opposition also 
to consolidate political parties that are going to defeat all 
the forces behind Daniel Ortega in 2021. Daniel Ortega is 
organizing everything for 2021, but opposition is fighting 
against themselves. So it is an opportunity to strengthening.
    Mr. Rooney. If I might, you make an interesting point. I 
have heard from some people that I know there that the 
popularity of Ortega is much less outside of Managua and maybe 
Granada, and maybe is there an opportunity to exploit that?
    Mr. Ponce. We have several tools. Congress has been 
increasing the budget for Nicaragua, for democracy in 
Nicaragua. We have the sanctions in our hands. So is it time to 
implement those tools to support political parties, to support 
Alianza, to support the campesinos, to support the faith-based 
groups and the youth and the autoconvocados to begin a force in 
Nicaragua in the whole country.
    Mr. Rooney. OK.
    Professor Maradiaga? Also, can you also comment about this 
Taiwan thing? Imagine, if anybody needs a friend like the 
United States, you would think it would be Taiwan. I mean we 
need to just focus on that one more time if they gave all that 
money to Nicaragua.
    Mr. Maradiaga. Indeed. And that is an example of the double 
standards. It is very unfortunate. And with this Taiwan loan 
and some other similar support from the inter-American bank of 
integration, and also from the support of South Korea, 
basically Mr. Ortega has a liquidity for the rest of this year. 
So many of the efforts that the OAS is doing, that the U.S. 
Government is doing in a way are affected by this double 
standard. So that is why my emphasis on coordination, it is 
important.
    A comment on the opposition and I agree with Dr. Ponce, the 
manual is the same. These regimes have the mechanisms to make 
it close to impossible for the opposition to participate and 
that is why opposition, it is, I wouldn't say divided, but it 
is very difficult to function under political persecution, 
under arbitrary arrest, so there are some opposition members 
that pick tactics that are low risk in order to remain in the 
country.
    There are some other members of the opposition, myself 
included, that have taken some other risks and that is why we 
are in exile. Some of us are in prison. And the only solution 
to move toward a new path is to restore basic freedoms so a 
robust opposition can organize in Nicaragua.
    Mr. Rooney. OK.
    Dr. Vivanco?
    Mr. Vivanco. I am sorry. I do not have any comments about 
the unity of the opposition in Nicaragua.
    Mr. Rooney. Here, in the last couple of seconds then that I 
have, does anyone have any comment about the realistic 
opportunities we may have to strengthen this opposition then 
and the risk, the odds of their success?
    Dr. Ponce or Dr. Maradiaga?
    Mr. Maradiaga. The people of Nicaragua see Ortega as a 
tyrant of the past. And some people do not believe in the 
polls, but Ortega was quite popular some years ago, precisely 
because of five billion dollars is an amount that is 
unprecedented in Nicaragua history for a country of six million 
people, so he was able to do some stuff that brought a lot of 
people in Nicaragua.
    But going back to the polls, about one of every two 
Nicaraguans are waiting for a new path. Ortega has about 20 
percent support. If we believe polls by, say, Gallup, and 
Victor Borge is another service in Nicaragua, so he is at his 
lowest point right now and the opposition has a fair chance. 
But the only way for the opposition to be effective is for the 
opposition to have the ability to move in the country, to 
organize. For the last 11 years, Daniel Ortega has declared any 
effective opposition group illegal. Many political parties have 
been declared illegal.
    So it is important to not only to have a snapshot of the 
opposition right now, but to understand that for 11 consecutive 
years being a true opposition in Nicaragua has been regarded a 
crime by Ortega.
    Mr. Rooney. Thank you very much. Thank you.
    Mr. Sires. Thank you.
    Congressman Levin.
    Mr. Levin. Thank you so much, Mr. Chairman. Thanks for 
holding this really important hearing.
    I want to take a longer view. So far, I think we have gone 
back to 2018 here, but I want to ask you about how the U.S. can 
best be helpful here given our history. The U.S. occupied 
Nicaragua for over two decades a century ago, and then we 
supported the Somoza dictatorship which ruled Nicaragua 
completely undemocratically for over 40 years.
    And I, as I think a 19-year-old or 18-year-old college 
student, I remember when the Sandinistas overthrew the 
dictatorship, and in my office, I have a T-shirt quilt that 
includes one little T-shirt celebrating 1 year of freedom in 
Nicaragua, which feels like a very bittersweet T-shirt today. 
And then of course the United States supported the Contras in 
the 1980's, so the United States has not always been a friend 
of democracy in Nicaragua. And here we are today, with Ortega 
acting like a transactional, as you said, Mr. Vivanco, you 
know, strong man. It is so, so troubling.
    So I want to ask you, in particular--well, and let me say 
one more thing. You know, when I was a law student, Mr. 
Vivanco, I worked for your organization during my summer, first 
summer of law school in Haiti after Aristide was overthrown the 
first time, and wrote with one other researcher sort of a book-
length report on the destruction of civil society in the 
aftermath of that overthrow. And so, I am not so interested in 
the opposition as, you know, my question is, how can the U.S. 
strengthen, sort of deal with this very problematic regime in a 
way that actually builds democracy and how can we support human 
rights organizations that are working there? I do not think you 
have said much about that. Maybe in your, you know, your 
testimony you submitted.
    But how can we provide support and resources to assist 
human rights defenders in civil society organizations that are 
obviously under threat, people being tortured and killed for 
their work, what can we do more to help them?
    Mr. Vivanco. Thank you very much, Congressman Levin, for 
your question. And, look, on the first point that you raise, 
which is the record of the U.S. in Nicaragua, and I will argue, 
in the whole region.
    Mr. Levin. Yes.
    Mr. Vivanco. Is not--is far from perfect, and on the 
contrary. Given the relationship of the government, of the U.S. 
Government, for instance, with the governments in South America 
like Chile, you know, and others, obviously it is a record that 
deserve obviously a serious scrutiny. And I agree with you 
about your assessment of the intervention in Nicaragua, 
historically, by the U.S. Government.
    Now we are in the 21st century and we are looking at the 
respect and promotion of fundamental freedoms and rights. We 
believe that those rights and freedoms are universal and they 
should be defended and promoted all over the world. I do 
believe that the U.S. Government today and this Congress in 
particular has a responsibility and leadership to play in 
coordination with other democracies in the world, particularly 
Europe and in Latin America. A multilateral approach to the 
case of Nicaragua could be much more effective.
    Mr. Maradiaga insisted about this point and I think he has 
a point in terms of urging this administration, ideally, the 
Trump administration, the State Department, to work 
multilaterally in terms of pressing the government for change 
and protecting civil society and NGO's and journalists who are 
trying to do their work.
    Mr. Levin. Well, my time is expired, but I just want to ask 
you before I end if you can share with me later particular 
ideas about how to, you know, which vehicles and which 
countries are active and, you know, I would be very much like 
to help in that effort.
    Mr. Vivanco. Delighted, thank you very much.
    Mr. Levin. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Sires. Congressman Guest.
    Mr. Guest. Thank you, Mr. Chairman.
    Dr. Ponce, in your written testimony on page 3, under a 
couple different subheadings, one entitled, ``International 
Partners in Crime,'' and the other entitled, ``Uprisings in the 
Market,'' you list three countries that have a close 
relationship with Nicaragua, one being Cuba which you describe 
as ``Communist Cuba's influence is unmistakable.'' You talk 
about Russia providing the regime with weapons and expertise, 
and then you also talk about China and the Grand Interoceanic 
Canal. Could you expand on the role those three governments are 
playing in the Nicaragua Government at this time?
    Mr. Ponce. Yes, thank you, Congressman. In the case of 
Venezuela, five billion dollars, and Venezuela has been 
involved directly in the process of supporting the corruption 
in Nicaragua. Part of the payments to the public sector has 
been paid with money from Venezuela, Albanisa, and the U.S. has 
been sanction Albanisa for corruption, money laundering, and 
involvement in drug trafficking in Nicaragua.
    With China, China has been supporting, and China--well, it 
was a Chinese planning with Daniel Ortega major corruption with 
the Interoceanic Canal. And that there are information about 
Russia operating in Nicaragua, they have a building in 
Nicaragua and the people in Nicaragua say there are more than 
200 Russian operating in Nicaragua, and there are some concerns 
about the weapons distributed by the Russians in Nicaragua. 
Russia has been providing for military arm and military weapons 
for the last five to 6 years to Nicaragua.
    Some of the people that I talk that have been in prison 
have been telling me that some of the people that are in--the 
older prisoners claim that they hear Cuban voices when they 
have been tortured in prison. And it makes sense because it is 
the same model of torture. If you see the torture in Venezuela, 
it is rape, it is sexual abuse, and different kind of structure 
that it is the same model implemented in Venezuela and in 
Nicaragua.
    The level of response of the management of the forces they 
have been repressing the civilians at the streets, it is this a 
military training. And some of the people have been saying that 
the Russian and the Cuban and the Venezuelan has been trained 
in military, but they bought a military, the groups who bought 
it that support Daniel Ortega directly with weapons. The 
weapons, when they began the repression, came to Nicaragua in 
matter of days. Several planes, some people in Nicaragua claim 
that Cuban planes and Venezuelan planes arrived to Nicaragua 
with weapons to a rainforest. They put all government violent 
groups in Nicaragua.
    Mr. Guest. And just very briefly also about the Chinese 
investment and Nicaragua. We have got and we have seen in the 
past and had hearings on the Belt and Road Initiative where 
China is investing in developing countries, and we are seeing 
that in Venezuela, are we not? Excuse me, in Nicaragua, are we 
not?
    Mr. Ponce. In Nicaragua, China is not so active apart from 
the Canal because Taiwan has been supporting more the 
Government of Nicaragua. Taiwan has been a major provider of 
support of Nicaragua. The Chinese has been acting in Nicaragua, 
but not as active as in Venezuela.
    Mr. Guest. And then, finally, you talked about if Ortega is 
allowed to run he will be re-elected, and you talk about the 
need for additional sanctions. Do you believe if additional 
sanctions are imposed that we will see someone else step 
forward and run for president, if, in fact, those sanctions 
were, in fact, imposed by our government?
    Mr. Ponce. The problem with the sanctions right now is we 
only impose sanctions to the inner circle of Daniel Ortega, 
Daniel Ortega's wife, Daniel Ortega kids, also and the people 
that work with Daniel Ortega. We are not expanding the 
sanctions to members of the police that were part of the 
repression, member of the military who were part for inaction 
or direct action against the civilians in Nicaragua.
    And we feel and we see that how the regime has been 
reacting to the sanctions. They are desperate every time that 
the U.S. impose any sanctions, they asking for lifting the 
sanctions. In the negotiation with the alliance that is one of 
the first topic in the negotiation, lifting the sanction. Yes, 
I do believe that more sanctions in Nicaragua will be 
effective. Listen, we are not asking, any of the witness, 
nobody is asking for intervention. Nobody is asking for 
anything. We are asking for sanctions and economic support and 
technical support to the opposition to be more effective in 
terms of getting rid of this regime, this terrible regime.
    Mr. Guest. Thank you, Mr. Chairman. I yield back.
    Mr. Sires. Congressman Espaillat.
    Mr. Espaillat. Thank you, Mr. Chairman.
    Mr. Maradiaga, you told us that there are nation-States in 
the Organization of American States that are clearly supportive 
of Nicaragua and what is going on right now. Could you tell us 
who they are for the record?
    Mr. Maradiaga. Yes, sir. Most of these are Caribbean States 
who remain very close to the Petrocaribe arrangement, so----
    Mr. Espaillat. Can you tell us their names?
    Mr. Maradiaga. With all due respect, I do not have the name 
of particular eight Caribbean islands that--but they are part 
of the CARICOM, you know, and I apologize for not having 
precisely the names of those States.
    But if I may add, what is particularly worrisome is 
neighboring States, particularly Honduras and Guatemala because 
many of these island States of the Caribbean have argued that 
if neighboring States are not taking concrete actions, it is 
difficult for them--and of course this is an excuse--it is 
difficult for them to take action. So we believe it is 
important to emphasize that Honduras and Guatemala should be on 
the right side of history by supporting the OAS.
    Mr. Espaillat. So, please, if you can give us that list for 
the record, whenever you can on who those----
    Mr. Maradiaga. I will immediately do so after the hearing, 
yes.
    Mr. Espaillat. OK.
    Dr. Ponce, you said that the problem has been that we have 
only applied Magnitsky Act sanctions on the immediate Ortega 
clan, right. Are you willing to give us a list of names of some 
of those other folks that you feel should get Magnitsky Act 
sanctions, with some level of background on why they should?
    Mr. Ponce. Yes, of course. I have been providing names for 
the last 3 years, even for the first one, Rivas, and some proof 
about some of these people. I believe that some other people 
from close to the regime need also to be included in the 
sanction, and knowing that we can lift the sanctions as soon as 
they collaborate with a democratic solution in Nicaragua. I can 
provide that.
    Mr. Espaillat. My next question is, although there has been 
a major crisis in Nicaragua, there has not been a migration 
crisis that have shown up at our southern border, like, for 
example, the number of Hondurans or the numbers of Guatemalans 
that show up at our borders due to violence and situations 
impacting Central America.
    Is there a migration crisis in Nicaragua and where are they 
showing up? Anybody?
    Mr. Maradiaga. If I may, historically, Nicaragua are an 
exception in terms of migration patterns. In comparison to 
neighboring Honduras, El Salvador, and Guatemala, Nicaraguans 
tend to migrate to Costa Rica.
    So yes, there is----
    Mr. Espaillat. How many have gone to Costa Rica?
    Mr. Maradiaga. Officially, over 80,000, which it is 
unprecedented numbers for a country of the size of Nicaragua. 
However, for the very first time in many, many years, we are 
seeing significant numbers of Nicaraguans at the U.S. border 
seeking for asylum.
    Mr. Espaillat. Thank you.
    TPS, I am supportive of TPS for Nicaraguans. The Trump 
administration has not been as supportive as the courts have 
weighed in. Given the crisis which is further aggravated by the 
shutting down of hotels, restaurant, stores, even like street 
vendors, right, which has led to a substantial number of folks 
being unemployed further fueling the crisis, first, could you 
tell me what you feel about the crackdown or the shutdown of 
these small businesses and what you also feel about the Trump 
administration's hardcore stance on extending TPS for 
Nicaragua? Anybody from the panel.
    Mr. Maradiaga. If I may, the TPS is a fundamental need for 
Nicaragua for various reasons.
    Mr. Espaillat. So you support it?
    Mr. Maradiaga. Yes, yes. And I will also add my 
appreciation to the Nicaraguan diaspora, to Nicaraguan 
Americans who have been fundamental to the struggle of 
democracy for Nicaragua. In the case of Nicaragua, there is an 
interesting and very substantive characteristic of Nicaraguan 
migrants. Most of Nicaraguan migrants want to return to 
Nicaragua. And we have done research on this. This is an 
exception to other migrant groups. So if we reestablish 
democracy in Nicaragua, also the immigration issue will be 
tackled.
    Mr. Espaillat. What about small businesses, anything?
    Mr. Maradiaga. In the terms of small businesses, this is a 
clear example of the violations of human rights. About 35 small 
businesses have been closed recently including pharmacies, 
including supermarkets because they closed their shops in 
protest to the Ortega regime as part of the nonviolent 
struggle.
    Mr. Espaillat. Thank you so much.
    Thank you, Mr. Chairman.
    Mr. Sires. Congressman Yoho.
    Mr. Yoho. Thank you, Mr. Chairman.
    Appreciate you all being here. Mr. Vivanco, the crimes you 
highlighted at the beginning are hideous in nature. Those that 
committed the horrendous charges of violence, did they act 
independent of Ortega's government or could they have acted 
independently and survived Ortega's authoritarianism?
    Mr. Vivanco. No. According to the--our evidence and 
evidence that we are actually going to include in a forthcoming 
report about atrocities committed by security forces as well as 
pro-government groups that works jointly with those security 
forces, there is no chance that those atrocities could have 
been committed without the approval and endorsement of the 
government at the highest level.
    Mr. Yoho. OK. And I think we can conclude the crimes could 
not have been orchestrated or carried out without the direct 
involvement of Daniel Ortega's knowledge and/or approval. That 
would be correct with all of you, right?
    Mr. Maradiaga. Yes.
    Mr. Yoho. All right. I have a report here from the U.N. 
High Commissioner of Human Rights. The Ortega administration 
repressed these demonstrators back when, they repressed the 
demonstrators before the elections. In August 2018, then United 
Nations High Commissioner of Human Rights, Zeid Ra'ad Al 
Hussein, asserted the violence and repression seen in Nicaragua 
since demonstrations began in April are products of the 
systematic erosion of human rights over the years and 
highlighted the overall fragility of the institutions and rule 
of law.
    The U.N. comes out and says that, but nothing gets done. 
The OAS still trades with Nicaragua. We entered an FTA with the 
Caribbean nations, Dominican Republic and the Central American 
nations. My question is, why are we still trading with somebody 
like this? Why in the heck do the civilized free world tolerate 
people like Daniel Ortega? I mean we are all against what he 
does. We are all against what he says. We see these actions. 
The U.N. goes down there and they talk about all these 
atrocities, yet everything goes on. Human trafficking is going 
on, smuggling and drugs, the repression, the torture that you 
guys brought up.
    In the civilized world we do not tolerate these things. 
What can we do different? We have invested hundreds of millions 
of dollars since, you know, over the decades in Nicaragua. And 
it goes for good governance, rule of law, economic 
development--I want to know where in the hell it is for my 
American taxpayers. I want to know where it is for the people 
of Nicaragua. That 80,000 that you said fled to Costa Rica, 
what time period was that?
    Mr. Maradiaga. That was since May of last year and now 
numbers have been probably much higher.
    Mr. Yoho. Sure, they are going to go up higher.
    Mr. Maradiaga. But if I may, sir, go back to your question, 
you are absolutely correct. The generosity of the United States 
after the civil war in Nicaragua has been tremendous in 
building civil society, helping build a human rights community. 
And when you ask where are those people, most of them are in 
prison or in exile. And that is why Mr. Ortega labels these 
people as terrorists because they are sending investment in 
terms of training in human rights, civil society that has been 
disregarded by Ortega.
    Mr. Yoho. But we in the free world need to wake up, because 
what we have is--we have got Nicaragua. You have got the failed 
regime of Hugo Chavez carried out through Maduro. We have got 
what is going in Cuba. We have got Russian interference in the 
Western Hemisphere. And, basically, they are all Communist 
nations that are operating in the Western Hemisphere and there 
was a time in this country where we would not tolerate that and 
I think we need to go back.
    If we are serious about what we said and if we really want 
to bring an end to this and get some stability and empower the 
people of those countries--China is over there doing whatever 
they are doing.
    I am over time, are not I? No, it is still going. I am on 
yellow. I looked at the wrong one.
    And China is over there. And if we are going to do this, 
let's do it right. And I want to know and I would love to have 
an hour conversation with all of you, what do we need to do 
different that we have not done? I mean, we know what causes 
good societies. It is rule of law, honoring human rights and 
things like that and we all talk about it, but we do not do it. 
I, for one, recommend that we get rid of trade with Nicaragua. 
Let them trade with China. That will work out well for them. 
Maybe they can build a dam like they did in Ecuador.
    I think we just need to have some strong talk and follow 
through with it and stop playing the games and having--and God 
bless you for coming up here talking about human rights and all 
that. We agree in that. We believe in that. And we need to come 
together as civilized nations and say enough is enough.
    I do not have any other questions. I just appreciate you 
all being here.
    Mr. Sires. Thank you, Congressman.
    Congressman Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    Let me start out by with what Mr. Levin said, because our 
hand and how we have dealt in the Western Hemisphere, 
particularly in Central and South America, is not clean where 
we have supported dictators and others when it was in our 
interests. So in listening and I do have concerns about what is 
taking place there, but if we were to withdraw all of the aid 
and everything else that we give to Nicaragua, will that make 
things better for the people of Nicaragua? That is my first 
question. Mr. Vivanco?
    Mr. Vivanco. Congressman Meeks, no, I am not advocating for 
some broad sanctions that might have an impact on the 
conditions, living conditions of the Nicaraguans. What I am 
advocating for and I am a strong believer is on targeted 
sanctions. And everything else in my experience, working for 
over 30 years on human rights issues in Latin America, is that 
what usually works is engagement not isolation. Engagement, but 
with conditions, with strings attached.
    Mr. Meeks. So I am with you on that. So what puzzles me at 
times with where we go, I am trying to think of a time in the 
Western Hemisphere where unilateral sanctions worked. There was 
not an engagement on that, you know, working with other 
countries and in the area. Has there been a time where 
unilateral sanctions worked which is, I think, being advocated 
here?
    Any one of you, in the Western Hemisphere has there been 
any time that you can recall, because I am trying to----
    Mr. Maradiaga. I will argue that Nicaragua is a perfect 
example in the 1980's. We saw one of the most bloody civil wars 
in Nicaraguan and Latin American history and we actually saw 
how U.S. sanctions brought Nicaragua back to democracy in 1990. 
I will also argue that the fact that Nicaragua and Ortega in 
particular was outside of the radar for many, many years made 
the problem to emerge again.
    Mr. Meeks. OK, because I was trying to see, you know, I 
know that when you talk about Nicaragua and you talk about a 
number of the scenarios, particularly back when President 
Reagan was around, we did some unscrupulous things there. And 
I, you know, and so we are still paying for that to a large 
degree.
    And so I was straining to think of where is, can you tell 
me where the other countries are like, you know, folks from the 
OAS, are they, you know, agreeing in the same methods, you 
know, or is this still just a unilateral sanctions area for the 
United States of America? Because and the other piece is, what 
I am trying to--because I am for democracy also, not just for 
regime change. So I want to know where is, where the U.S. has 
required regime change has resulted in a democratic government 
with human rights, et cetera, when it is just the United States 
particularly by itself.
    Mr. Maradiaga. Please allow me to say that Nicaraguans 
believe that the mistakes of the past cannot be an impediment 
for the current exercise of the U.S. leadership in promoting 
human rights. And I will also insist on the importance of 
multilateral actions. In this regard I would like to publicly 
appreciate, first of all, the leadership of Ambassador Carlos 
Trujillo, U.S. Ambassador to the OAS, but also other missions 
to the OAS such as the mission of Colombia, Argentina, Chile, 
and many others who are with us in this collective effort.
    Mr. Meeks. And that is, you know, tremendously important, I 
think, to make sure that when I am talking, when I hear 
conversations about sanctions, et cetera, that has got to be a 
multilateral level. The one time that I know when sanctions was 
very strong was in South Africa. The United States was last to 
come on board, but it was multilateral. It was everybody. But 
if you just do it in an individual basis, it does not seem to 
me to be quite as effective.
    Also, what my concern is--I guess I am out of time--is 
someone, I do not know, one of you has said that if there was 
elections that happened today that Ortega would get reelected. 
That is a concern because I do want to make sure that, you 
know, though, that the people's voices are heard and that we 
just do not overturn an election because the people voted for 
someone that we did not want to vote unless we are talking 
about an election that was committed under fraud. I am out of 
time, so I yield back.
    Mr. Sires. Congressman Phillips.
    Mr. Phillips. Thank you, Mr. Chair. And thank you to our 
witnesses.
    Since the Trump administration we are seeing a massive 
decline in our foreign assistance around the world, 
particularly in the Western Hemisphere. I think that 
compromises both our national security and certainly the 
security and safety of the residents of the countries in 
question. The administration is proposing a 40 percent 
reduction in assistance this year to only $6 million. Money is 
not always the answer alone.
    My question for each of you, starting with you, Mr. 
Vivanco, is what are the best practices as you have seen our 
country practice around the world in similar circumstances and 
what level of funding, in your estimation, is appropriate to 
effect what is in our best interest?
    Mr. Vivanco. Congressman Phillips, I think the key is to 
make sure that there is always enough resources available to 
support civil society, to strengthening the rule of law, the 
independence of the judiciary, to press, press countries that 
have an undemocratic structure and record to reform its 
legislation to allow for real checks and balance on the 
executive. So all of those goals should be always be present in 
the U.S. foreign policy and should be supported with sufficient 
resources.
    Mr. Phillips. And, sir, where you have seen us effect that 
effectively?
    Mr. Vivanco. Well, there are many examples in Latin 
America. I think the U.S., you know, across, you know, we are 
looking into the--from the 1990's up today, there are good 
examples of--in Chile, for instance, in Peru, reforms that 
allows for more transparency and it strengthens rule of law, 
including Colombia, I think, is a good example. Colombia is not 
a perfect example. There are many problems there, still, but 
there have been some, I would say, conscientious effort to 
support the rule of law and the independent judiciary in that 
country.
    I wish that we could have better examples, let's say, in 
Central America and including Mexico, but unfortunately the 
record is pretty poor.
    Mr. Phillips. I appreciate it.
    Mr. Maradiaga?
    Mr. Maradiaga. I will emphasize in five key best practices. 
These are not all, but just a quick summary. Funding the 
strengthening of civil society particularly independent human 
rights organizations; supporting the free press; civic 
education of youth particularly of underrepresented minorities 
such as indigenous communities and women; technical support to 
electoral systems; and anticorruption and transparency 
initiatives.
    Mr. Phillips. And where do you think we have effected those 
initiatives well?
    Mr. Maradiaga. I think that the work particularly of 
agencies such as USAID in the case of Nicaragua has been 
fantastic. Precisely what we see when we saw hundreds of 
students asking for democracy, women asking for democracy, and 
something impressive which are faith-based organizations 
working along leaders of the LGBT community, for example, 
working together for the same objectives. That does not come 
out of magic. That is the result of many, many years building 
inclusive civil society.
    And I will take also time to appreciate the support of U.S. 
taxpayers in supporting civil society in Nicaragua.
    Mr. Phillips. And do you have a sense of what is an 
appropriate level of funding? Six million dollars, I trust, 
cannot accomplish that.
    Mr. Maradiaga. I think it is of course a very, very small 
number in comparison to what the U.S. has invested in other 
nations of the world. That was about--that is less than 25 
percent of the support that Nicaragua used to have in the early 
1990's.
    Mr. Phillips. Thank you.
    Doctor?
    Mr. Ponce. Yes. I disagree. I believe that some of the 
assistance that has been going to the region has been plagued 
by rent seeking, 50, 60 percent of the money stay here in the 
U.S. to pay for the organizations. Organizations charge 20, 30 
percent. It is about fighting for the foreign assistance to 
maintain a high level, but also begins to request also from the 
implementers to fulfill some impact and measure by impact.
    Six million dollars in Nicaragua can be a good amount of 
money, but the problem if we take away 50 percent, 60 percent 
of the money to maintain the organizations here in Washington, 
DC, we are not making a major favor to the assistance that we 
are providing for democracy and human rights in the region.
    Mr. Phillips. Thank you, sir.
    I am out of time, I yield back.
    Mr. Sires. Thank you, Congressman.
    I have one question. You know, I always read about the 
power behind the presidency which is supposed to be Ortega's 
wife. Is that accurate? How much say does she have in the 
country?
    Mr. Maradiaga. That is absolutely accurate and there is a 
very sad episode that really explains part of that and this is 
in the public record and has been widely documented, the rape 
of Ortega's stepdaughter. And when Ms. Zoilamerica came out 
publicly to denounce the rape, Rosario Murillo supported Daniel 
Ortega; then Daniel Ortega would be absolute history if that 
particular crime would have been taken into justice. But 
Rosario Murillo supported Daniel Ortega clearly in exchange for 
a piece of the pie. And that is how the Ortega family sees 
Nicaragua, as a pie that they share among their inner circle.
    Mr. Sires. Anybody else have any other----
    Mr. Ponce. Yes, I was detained and I was expelled from 
Nicaragua by a direct order of Rosario Murillo. And when the 
Ambassador tried to negotiate, Rosario Murillo directly say, 
``I am the one who rules the country here.''
    So it is also a problem that Daniel Ortega manage some of 
the negotiations, the peak negotiation, but she is in control 
of the operation of the government. She is in control of the 
violence. She is in control of major things in the country and 
she sees herself as a major power behind Daniel Ortega. And as 
Felix said, talking with Zoilamerica, Zoilamerica talks about 
the corruption and how she maintained the whole structure of 
corruption behind Daniel Ortega too.
    Mr. Sires. So if Daniel Ortega steps down, do you think she 
runs for president?
    Mr. Ponce. I believe that Daniel Ortega will try to run 
again. And if not, she will try to run. They will maintain--
they want immunity, impunity, and also maintain control. This 
couple has been in power directly or indirectly for four 
decades in Nicaragua, so they are not going to leave as easy as 
we want.
    Mr. Sires. Well, this has been a very interesting hearing 
and I want to thank you for coming. We keep reading about 
Nicaragua. We keep reading about some other countries in the 
region, but Nicaragua is now standing out. And I was hopeful 
that other countries, like Guatemala, were going in the right 
direction, but now they seem to have taken a step back. And it 
is very disheartening when you push as I do for the Western 
Hemisphere that they take a step forward and then they take two 
or three steps back, and you have to constantly defend that we 
have to get more involved in the Western Hemisphere.
    Ladies and gentlemen, thank you all for being here today 
for this important hearing. The crisis in Nicaragua continues 
at the hands of the Ortega regime. I want to reiterate my 
support for the Nicaraguan people and their tireless effort to 
fight for democracy. I thank our witnesses for being here today 
and with that I adjourn the hearing.
    [Whereupon, at 11:21 a.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
